McCLUNG v. ESTEVEZ
U. S. Sup. Ct. Pet. W.Cert. Case No.
______
From Florida S.Ct Case No. SC19-1814; 3D19-1562; 13-394 AP (01);
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02).

No.

IN THE
SUPREME COURT OF THE UNITED STATES

FRANK A. McCLUNG, JR. and
MARIAN E. TELLMAN-McCLUNG,
his wife,
Petitioners,
vs.
ELIA E. ESTEVEZ,
Respondent.

PROOF OF SERVICE
WE, Frank A. McClung, Jr. and Marian E. Tellman-McClung, Petitioners, do swear or declare
that on this date, November 18, 2020, as required by Supreme Ccourt Rule 29, we have served the
enclosed Motion for Leave to Proceed In Forma Pauperis and Petition for Writ of Certiorari on each
party to the above proceeding or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows;

Andrew P. Kawel, Esq., Counsel for Respondent ELIA E. ESTEVEZ
Kawel, PLLC
80 S.W. 8th Street
Miami, FL 33130-3004
We declare under penalty of perjuiy that the foregoing is true and correct.
Executed on November 18,2020.

^----PRANK A. McCL

M

AN E. TELLl
40

McCLUNG, Petitioner

Additional material
from this filing is
available in the
Clerk's Office.

